HHS/OIG-Audit--"Excessive Payments for Pathology and Laboratory Services Under Virginia's Medicaid Program for Calendar Years 1995 and 1996, (A-03-97-00200)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Excessive Payments for Pathology and Laboratory Services Under Virginia's Medicaid Program for Calendar Years 1995
and 1996," (A-03-97-00200)
January 29, 1998
Complete
Text of Report is available in PDF format (1.5 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State agency made excessive Medicaid payments totaling $1,629,750 (Federal
share) for pathology and laboratory services in Calendar Years 1995 and 1996. The payments were excessive because they
exceeded Medicare limits. The State Medicaid Manual limits Medicaid reimbursement for clinical laboratory tests to no more
than amounts recognized by the Medicare program. We recommended that the State agency: (1) revise its laboratory fee schedule
amounts to conform to limits established by the Medicare program; (2) implement procedures to monitor changes to Medicare
laboratory fee schedules to ensure that Medicaid fees do not exceed Medicare limits; and (3) make a financial adjustment
for $1,629,750.